<html>
<title> - AVOIDING DUPLICATION: AN EXAMINATION OF THE STATE DEPARTMENT'S PROPOSAL TO CONSTRUCT A NEW DIPLOMATIC SECURITY TRAINING FACILITY</title>
<body><pre>[Senate Hearing 114-461]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-461

                AVOIDING DUPLICATION: AN EXAMINATION OF
                   THE STATE DEPARTMENT'S PROPOSAL TO
         CONSTRUCT A NEW DIPLOMATIC SECURITY TRAINING FACILITY

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                           U.S. GOVERNMENT PUBLISHING OFFICE
22-226PDF                          WASHINGTON : 2016                               


_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
             David S. Luckey, Director of Homeland Security
              Joske J. Bautista, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Robert H. Bradley II, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Ernst................................................    13
    Senator McCaskill............................................    15
Prepared statements:
    Senator Johnson..............................................    31
    Senator Carper...............................................    33

                                WITNESS
                         Tuesday, July 28, 2015

Gregory B. Starr, Assistant Secretary, Bureau of Diplomatic 
  Security, U.S. Department of State.............................     4
David Mader, Acting Deputy Director for Management, and 
  Controller, Office of Federal Financial Management, U.S. Office 
  of Management and Budget.......................................     6
Connie L. Patrick, Director, Federal Law Enforcement Training 
  Center, U.S. Department of Homeland Security...................     7

                     Alphabetical List of Witnesses

Mader, David:
    Testimony....................................................     6
    Prepared statement...........................................    40
Patrick, Connie L.:
    Testimony....................................................     7
    Prepared statement...........................................    42
Starr, Gregory B.:
    Testimony....................................................     4
    Prepared statement...........................................    35

                                APPENDIX

Statement submitted for the Record from Congressman Earl L. 
  ``Buddy'' Carter...............................................    47

 
                  AVOIDING DUPLICATION: AN EXAMINATION
                   OF THE STATE DEPARTMENT'S PROPOSAL
        TO CONSTRUCT A NEW DIPLOMATIC SECURITY TRAINING FACILITY

                              ----------                              


                         TUESDAY, JULY 28, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ernst, Carper, 
McCaskill, and Booker.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to welcome the witnesses. We appreciate you taking 
the time and your testimony. Looking forward to hearing it.
    In today's hearing, we will examine the decision to approve 
the State Department's plan to construct the Foreign Affairs 
Security Training Center at Fort Pickett Army National Guard 
Base in Blackstone, Virginia. We would like to learn why this 
half-billion-dollar project was greenlighted even though a more 
cost-effective alternative was available by expanding the 
Federal Law Enforcement Training Center (FLETC), training 
complex in Glynco, Georgia.
    Since 1993, the State Department has been attempting to 
consolidate 19 diplomatic security training facilities to 
provide necessary soft and hard skills training to personnel 
assigned to high-threat, high-risk environments. In December 
2012, the State Department presented the Office of Management 
and Budget (OMB) with a full master plan, which included 
construction costs for all services at a proposed cost to the 
taxpayer of $950 million. After consolidating several 
facilities in the plan, State reduced its proposal to $907 
million.
    At OMB's request, FLETC presented a $273 million full-
service alternative that leveraged existing facilities used to 
train law enforcement personnel from over 90 Federal agencies, 
including State's own diplomatic security agents. Despite the 
significant price difference and congressional opposition, on 
April 17, 2014, OMB approved a pared down version of State's 
plan, a $461 million proposal that removed all classroom-based 
soft skills security training, the dormitory complex, and the 
cafeteria.
    The need to provide appropriate training to State personnel 
is of the utmost national importance. However, after examining 
OMB's analysis, this Committee discovered that OMB auditors 
recommended the administration construct State's training 
center at FLETC in Glynco, Georgia. According to OMB's own cost 
analysis, the FLETC proposal represented immediate savings of 
$188 million and an estimated $812 million savings over 10 
years.
    Additionally, OMB concluded there were other benefits to 
the FLETC option over the State Department proposal, including 
timing of construction and foreign affairs counter threat 
training, and life support services. Ultimately, however, the 
Director of OMB selected State's plan, even though it is more 
expensive and has less capabilities.
    In today's budgetary environment, OMB's fiscal carelessness 
demonstrates the need to conduct stringent oversight over the 
administration's project decisions to ensure taxpayers' money 
is not wasted in duplication. By constructing a facility only 
for hands-on security training, State failed to achieve its 
main objective: consolidation. Not only will State overspend 
hundreds of millions of dollars building, operating, and 
maintaining a new facility at Fort Pickett, but it will also 
have to contract and lease other facilities to provide soft 
skills training components.
    In today's hearing, witnesses will shed light on OMB's 
approval process, attempt to explain why State needs its own 
training facility when taxpayers already pay to maintain 
similar facilities, and describe what efforts FLETC officials 
undertook to accommodate State requirements.
    Again, I thank the witnesses for joining us today and look 
forward to the testimony. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Everyone, welcome. Good to see you all. Thanks for joining 
us today.
    I appreciate, Mr. Chairman, holding the hearing on the 
process used to select Fort Pickett in Virginia as the site for 
a new State Department training facility.
    For over 5 years, the Department of State has worked to 
identify a new consolidated location to train diplomatic 
security special agents. This Committee certainly understands 
the importance of this kind of endeavor. Consolidating agency 
facilities with the same or similar missions can bring a number 
of financial and other benefits.
    That is why I continue to support the consolidation of the 
Department of Homeland Security (DHS) headquarters at St. 
Elizabeth's. The St. Elizabeth's project is good for the 
Department of Homeland Security and for its employees, and 
ultimately, it is good for taxpayers. In fact, completing St. 
Elizabeth's will save, we are told by the General Services 
Administration (GSA), will save over a billion dollars during 
the course of the next 30 years. In addition, it has the 
potential to improve morale at the Department of Homeland 
Security, and enable the men and women who do work there to 
work more effectively.
    That brings me to two basic questions that I hope we can at 
least try to answer here today. The first, is Fort Pickett a 
good option for the State Department? And, second, is it a good 
option for taxpayers?
    The State Department currently manages operational training 
at 11 separate facilities. I am told that most experts agree 
that a consolidated training site for the Department of State 
is warranted, but from what I understand, the site selection 
process that has been used has raised a number of questions. It 
is my hope that our witnesses today, the three of you, will be 
able to shed some much-needed light on the selection process. 
We also need to better understand exactly what type of training 
the State Department needs and what the existing Federal Law 
Enforcement Training Center in Glynco, Georgia, can offer.
    I am pleased that Director Connie Patrick is here today to 
talk about the training she oversees at the center. She has 
invited me to come there before, and I am going to have to take 
you up on that offer here before long.
    I also look forward to hearing from OMB--I think we look 
forward to hearing from OMB today about their role in the 
selection process.
    In closing, I would just like to tell you a quick story, 
sort of a personal story that I think is timely for today. I 
stepped down as Governor in 2001. I needed to buy a car, and I 
took my son, Christopher, who was 12 years old, and I said, let 
us go buy a car. And we went out that day, Mr. Chairman, and we 
drove Porsches, Corvettes, Mustangs, and I bought a Chrysler 
Town and Country minivan. He said it was bait and switch. 
[Laughter.]
    And yesterday, as I was driving in my 2001 Chrysler Town 
and Country minivan across the Bay Bridge, coming here from 
southern Delaware, the odometer went over 400,000 miles. And, I 
tell that story that I do not like to waste my money, and as 
Governor, I did not want to waste taxpayers' money in Delaware, 
and I certainly do not want to waste money here today. I like 
to get our money's worth for the dollars that I spend and for 
the taxpayers, and I hope at the end that we can do that here, 
as well.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper, and I will go 
on the record. I am a big fan of minivans. [Laughter.]
    At least a dozen.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Starr. I do.
    Mr. Mader. I do.
    Ms. Patrick. I do.
    Chairman Johnson. Thank you.
    Our first witness is Gregory Starr. Mr. Starr is the 
Assistant Secretary of State for Diplomatic Security (DS). In 
this capacity, Mr. Starr is in charge of the security and law 
enforcement arm of the State Department. Previously, Mr. Starr 
served as the United Nations Under Secretary General for Safety 
and Security. Mr. Starr.

 TESTIMONY OF GREGORY B. STARR,\1\ ASSISTANT SECRETARY, BUREAU 
        OF DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE

    Mr. Starr. Thank you, Mr. Chairman, Ranking Member Carper, 
Senators. This is a great opportunity for us to discuss the 
Department's plan for a Foreign Affairs Security Training 
Center (FASTC) at Fort Pickett.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Starr appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    As you know, keeping U.S. personnel overseas safe is a 
dynamic process and we work constantly to improve our security 
training practices. Improved training was a key finding of the 
Benghazi Accountability Review Board (ARB), and both the 
Management Review Panel and the Best Practices Panel further 
recommended that the Department establish a consolidated 
training facility within a reasonable distance to Washington, 
D.C.
    Since then, major attacks on State Department facilities 
and personnel in Herat, Afghanistan, Erbil, Iraq, plus the need 
for evacuations from Libya and Yemen have only highlighted the 
danger our employees face while fulfilling our diplomatic 
responsibilities abroad. Officers and family members continue 
to work and reside in Cairo, Amman, Nairobi, Khartoum, and many 
other cities with significant security concerns. All deserve 
enhanced pre-deployment security training to prepare for the 
work they do and where they live in these challenging 
environments.
    The Department had initiated efforts to combine multiple 
hard skills security training venues into one consolidated site 
even prior to the Benghazi recommendations. In 2009 and 2010, 
the Department and the General Services Administration invested 
significant time and effort to review over 70 properties before 
selecting the site Fort Pickett as the preferred site for 
FASTC, the training center. While originally envisioned as a 
hard skills training venue only, the 2011 master plan looked to 
collocate all security training, hard and soft skills, at one 
site.
    However, when the costs for that proposal were estimated at 
over $900 million, we determined that the collocation of soft 
skills security training was fiscally unsupportable, and in 
early 2013 directed that the proposal be altered for hard 
skills security training only, the need versus the want. This 
reduced the cost to $461 million, which was further refined to 
$413 million by GSA.
    The hard skills security training we provide is for the 
entire U.S. Government's civilian community serving overseas. 
The current Foreign Affairs Counter Threat (FACT) course will 
be required training for all Foreign Service personnel, with 
refresher training every 5 years. Specialized high-threat 
operational training for all of our 2,000 DS agents was a 
Benghazi ARB recommendation accepted and embraced by the 
Secretary. This involves an initial 10-week course and 
recurring skills refresher training, including heavy weapons 
instructions and interoperability training with the Marine 
Corps Embassy Security Guard Units based in Quantico.
    Diplomatic security also trains foreign police and security 
elements for the Anti-Terrorism Assistance program as well as 
foreign security elements charged with protecting our 
diplomatic facilities abroad as part of our enhanced training 
program. We have extensive training programs for our locally 
employed staff, including driving courses, investigative 
classes, and comprehensive bodyguard modules.
    The requirements for this training center are clearly 
stated. Proximity to Washington, DC, has always been a priority 
for us, for two reasons. First, D.C. is the natural hub for 
Department of State personnel preparing to go overseas, and 
having a closer training facility will cut down travel costs, 
provide training opportunities to family members, and improve 
logistics.
    More importantly, staying in the Mid-Atlantic region allows 
us to train with our critical security partners, especially the 
United States Marine Corps (USMC). Marine security guards, 
Marine Fleet Anti-Terrorism Security Teams, and Marine Security 
Augmentation Units are the primary Department of Defense (DOD) 
crisis response elements for diplomatic security abroad. This 
collaboration is essential for the security of U.S. personnel, 
as we have seen in Libya, Yemen, and the Central African 
Republic.
    Consolidation increases the effectiveness by training 
itself, by allowing students to seamlessly transfer from one 
real world scenario to another. Threats often emerge quickly 
and require immediate action to counter, and having a dedicated 
and consolidated Department of State training center will 
provide the flexibility necessary to immediately train for 
emerging threats and major events.
    Our specialized training for high-threat environments 
includes heavy weapons, explosives demonstrations, armored 
vehicle driving, helicopter landings, and extensive night 
training, over 175 nights per year. Finding a single site that 
can accommodate all of these elements without disrupting the 
security of the surrounding area has been challenging.
    The Federal Law Enforcement Training Center has its strong 
core competencies in training Federal law enforcement agencies, 
which is why we send our own agents there for basic 
investigative training. But with FASTC, we are not solely 
training for law enforcement. We are preparing diplomatic 
security agents for service at critical threat posts overseas, 
which requires an extremely specific skill set, working much 
more with DOD partners than our domestic law enforcement 
partners. We are training U.S. Government personnel, their 
families, and foreign security elements for increasingly 
hazardous environments.
    To close, sir, I would say we examined over 70 sites and 
Fort Pickett is the only one that meets all of our 
requirements. We have conducted exhaustive environmental and 
fiscal studies on the project and the capabilities planned for 
FASTC at Fort Pickett are essential.
    While the Department understood OMB's direction to conduct 
additional due diligence with FLETC, this extra effort has 
delayed establishing FASTC for a year. Working closely with 
GSA, this critically important project will be brought in on 
time and on budget. The Department remains committed to an open 
and transparent process with FASTC, and I look forward to 
answering any questions you have on this.
    Thank you.
    Chairman Johnson. Thank you, Mr. Starr.
    Our next witness is David Mader. Mr. Mader currently serves 
as the Acting Deputy Director for Management at the Office of 
Management and Budget and Controller of the Office of Federal 
Financial Management within OMB. Prior to this position, Mr. 
Mader served as Senior Vice President for Strategy and 
Organization at Booz Allen Hamilton. Mr. Mader.

    TESTIMONY OF DAVID MADER,\1\ ACTING DEPUTY DIRECTOR FOR 
    MANAGEMENT, AND CONTROLLER, OFFICE OF FEDERAL FINANCIAL 
        MANAGEMENT, U.S. OFFICE OF MANAGEMENT AND BUDGET

    Mr. Mader. Thank you, Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee for the 
opportunity to testify today on a topic that is critical to the 
safety and security of our men and women who serve overseas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mader appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    OMB shares the Committee's interest in ensuring the best 
use of taxpayer funds to meet U.S. Government needs and ensure 
the safety and security of U.S. citizens and personnel overseas 
in a world that faces many threats. Throughout this process, 
particularly in the fall of 2013, OMB's role in reviewing the 
State Department's proposal for a new Diplomatic Security 
Training Facility was to perform due diligence by ensuring that 
the State Department thoroughly considered alternatives to Fort 
Pickett, Virginia, as the site selected for the FASTC.
    As part of OMB's effort to encourage the State Department 
to consider alternatives to the new construction, OMB 
facilitated analysis of both Fort Pickett and DHS's FLETC 
facility. OMB reviewed proposals submitted by both the State 
Department and FLETC and coordinated interagency efforts to 
achieve a common understanding of the capabilities and 
requirements of each of the proposed facilities.
    In addition, OMB facilitated further discussions between 
the State Department and FLETC concerning whether FLETC could 
provide the full suite of training courses and synergies that 
the State Department was seeking to fulfill in the diplomatic 
personnel security training area. This was coupled with an 
effort by OMB to have the State Department closely review its 
cost estimates for the construction of the facility. Even prior 
to this review, the State Department's Bureau of Diplomatic 
Security was reevaluating its plans in order to focus on hard 
skills training, descoping the original proposal from over $900 
million to $413 million that would focus on hard skills 
training.
    While OMB staff closely analyzed the data received from the 
State Department and from FLETC, OMB's role was not to second-
guess diplomatic security requirements. The expertise of this 
function clearly resides with the State Department's Bureau of 
Diplomatic Security. OMB ultimately relied on the State 
Department's unique understanding of diplomatic missions abroad 
to give appropriate weight to the consideration of several 
factors, including, one, the location of the facility and the 
interagency synergies; two, the timing of the construction and 
the Foreign Affairs Counter Threat Training; three, access to 
facilities and course scheduling; and four, overall training 
requirements and support services.
    Part of OMB's role was to ensure that these factors were 
analyzed and appropriately considered. In the end, however, OMB 
relied on State Department's expertise on security issues to 
determine which facility best met its diplomatic security needs 
and provided the proper balance between operational needs and 
cost.
    The administration supports locating this facility at Fort 
Pickett, as reflected in the administration's request for $99 
million for FASTC funding in Fiscal Year 2016.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Mader.
    Our final witness is Connie Patrick. Ms. Patrick is the 
Director of the Federal Law Enforcement Training Center. Prior 
to becoming Director, Ms. Patrick completed a distinguished 20 
year law enforcement career in Florida. Ms. Patrick.

   TESTIMONY OF CONNIE L. PATRICK,\1\ DIRECTOR, FEDERAL LAW 
   ENFORCEMENT TRAINING CENTER, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Patrick. Thank you, Mr. Chairman, Ranking Member 
Carper, and Members of the Committee. It is an honor to be here 
with you today. I would like to acknowledge and thank Congress 
for its longstanding support for the Federal Law Enforcement 
Training Centers' mission to train those who protect the 
homeland. I have been privileged to serve as the Director since 
2002, after having served in several senior leadership 
positions at FLETC.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Patrick appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    Forty-five years ago, Congress created FLETC under the 
premise that consolidated Federal law enforcement training 
provides consistency and efficiency in the preparation of law 
enforcement officers and agents, while enabling agencies to 
conduct specialized training that meet their operational needs. 
Today, FLETC is the Nation's largest provider of law 
enforcement training. It delivers basic and advanced training 
to 95 Federal partners and thousands of State, local, tribal, 
and international law enforcement officers and agents at four 
domestic training sites in the United States, at International 
Law Enforcement Academies, and at export locations throughout 
the United States and internationally.
    FLETC also engages in ongoing training review, development, 
and research in coordination with stakeholders at all levels of 
law enforcement to ensure its training continues to meet its 
partners' evolving needs.
    FLETC has a long and rich history of working with its 
partners to adapt training programs and facilities to meet 
emerging threats and associated agency training requirements. 
The Department of State was an original signatory to FLETC's 
Memorandum of Understanding (MOU) in 1970 and remains a valued 
partner.
    The Department of State's Bureau of Diplomatic Security 
Service Criminal Investigators attend the Basic Criminal 
Investigator Training Program at FLETC. They also attend 
various advanced training programs.
    The Department of State granted FLETC certification to 
conduct the Foreign Affairs Counter Threat Training Program at 
FLETC in March 2015 and we are piloting that program in Glynco 
this week.
    FLETC fully supports the Department of State's need to 
consolidate its training in furtherance of best preparing its 
personnel to serve in critical overseas functions. In early 
2013, the Office of Management and Budget requested that FLETC 
work with the Department of State and the General Services 
Administration to assess the viability of using capacity at 
FLETC facilities and the cost of any additional required 
construction to meet the Department of State's training needs. 
FLETC accordingly developed a rough order of magnitude cost 
estimate of $200 million, which OMB asked FLETC to refine in 
August 2013.
    In response, in November 2013, FLETC submitted a more 
detailed cost estimate of $272 million. This estimate and 
associated business case are based on the Department of State's 
original full scope master plan and account for training that 
FLETC could conduct immediately, training that would require 
modification to existing facilities, and training that would 
require new construction. FLETC's proposal guaranteed 
Department of State primacy of use of facilities constructed 
specifically for them.
    In April 2014, FLETC received notification from OMB that 
the decision was made to allow the Department of State to 
establish the Foreign Affairs Security Training Center at Fort 
Pickett, Virginia. Since that time, FLETC has taken no further 
action on this issue, except for responding to congressional 
inquiries on its 2013 cost estimate. FLETC remains committed to 
the Department of State's goal to consolidate its training and 
looks forward to a continued partnership with the Department of 
State.
    And, I am pleased to answer any questions the Committee 
might have.
    Chairman Johnson. Thank you, Ms. Patrick.
    Before I begin my questioning, I do ask consent to enter 
into the record a letter with a series of questions from 
Congressman Earl Carter from Georgia.\1\ I am guessing that 
FLETC is in his district. So, without objection, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Congressman Carter appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    Chairman Johnson. I will start my questioning with his 
first question, just to get it on the record, and I guess this 
is probably for Mr. Mader. What official at OMB approved moving 
forward with the construction of the FASTC back in 2014, as Ms. 
Patrick indicated?
    Mr. Mader. Mr. Chairman, as you know, I was not at OMB back 
at that timeframe. I only arrived at OMB in June of this past 
year. My understanding, and having had the opportunity now to 
participate in a full cycle of the budget process at OMB, that 
decisions are made at varying stages of that process, which 
basically starts in the spring and culminates with the 
President's budget in February.
    In this particular case, my understanding in preparing for 
the hearing was that there was a group decision on the part of 
senior OMB officials that based upon the uniqueness of the hard 
skills training that Mr. Starr testified to, that it was best 
to defer the decision to the State Department because of the 
uniqueness of this facility.
    Chairman Johnson. The decision should be OMB's, but they 
basically punted the decision to the State Department.
    Mr. Mader. I think, Mr. Chairman, and having been in the 
government on the other side, on the receiving end of OMB 
during the budget process and now being part of it, it is a 
process that actually is a give and take process and I would 
characterize as negotiation over time in which the parties come 
to an agreement that meets the needs of the mission and is done 
in the most efficient and effective way.
    Chairman Johnson. But, in terms of responsibility, the 
Director of OMB would have basically made the decision to let 
the State Department decide? Again, this is not an 
interrogation. I just want to get that on the record for the 
Congressman.
    Mr. Mader. My understanding is that the group of OMB 
executives that made the final determination to defer included 
the Director.
    Chairman Johnson. OK. Mr. Starr, I just want to kind of go 
through the basics of the training, and I have to get the name 
of it. The Foreign Affairs Counter Threat Course that is, 
really, that is the heart of what we are training here, 
correct?
    Mr. Starr. It is one portion of the training, sir.
    Chairman Johnson. Now, is that the hard skills?
    Mr. Starr. It is one portion of the hard skills training.
    Chairman Johnson. OK. How many people on an annual basis 
does the State Department train? What are the numbers?
    Mr. Starr. About 9,000 to 10,000 people a year.
    Chairman Johnson. OK. And, then, is that a year-long 
training process? Is this, like, you go to college and you are 
there for 365 days, weekends off, or is this in 2-week 
increments, or exactly how is that, and is there a number of 
man days, or I guess we should call them person days?
    Mr. Starr. The Foreign Affairs Counter Threat Training 
Course for all Foreign Service personnel--political officers, 
consular officers, and as many families as we can get through--
is a 1-week course. We do about 140 to 150 iterations of that 
course every single year in order to get about one-fifth of the 
Foreign Service through it every single year. It is a recurring 
5-year course that they will take every 5 years to give them 
hard skills training.
    Chairman Johnson. So, I guess the question--I am trying to 
get to how many training days per person, if you have, let us 
say, just 10,000 so we can do the calculation--how many 
training days, on average, does each one of those individuals 
get?
    Mr. Starr. Sir, I do not have the answer to that because 
every course is different lengths. The special agents that go 
through training, their initial training is 7 months long. The 
high-threat course is 10 weeks long. RSO hard skills training 
is about 5 weeks long.
    Chairman Johnson. OK.
    Mr. Starr. The FACT course is one week long. That is for 
the majority of the personnel there. We have courses, hard 
skills training courses, for our locally employed staff 
overseas that we train when we come back, and driver training 
can be 2 or 3 weeks long. The bodyguard training can be 5 weeks 
long.
    Chairman Johnson. OK. So, what I am hearing is probably the 
longest one is about 7 months, which is pretty intensive.
    Mr. Starr. Yes.
    Chairman Johnson The other ones are a couple weeks, I mean, 
2 weeks, 1 week, 5 weeks, 7 weeks, that type of thing.
    Mr. Starr. Seven, yes. The large majority of the courses 
for the larger Foreign Service officers is one week, and then 
it goes up from there.
    Chairman Johnson. OK. Again, we all acknowledge this is 
incredibly important that we train our diplomatic corps and 
their families so they can keep themselves safe, but this 
hearing is all about cost efficiency.
    So, Ms. Patrick, let me ask you, what is the cost metric 
you use in FLETC in terms of what is the cost per training day, 
training week, and in your proposal, because you provided OMB a 
full-blown proposal on this entire training process, did you 
condense that into your own training metrics in terms of cost 
so we can analyze that?
    Ms. Patrick. The proposal that we gave OMB was strictly 
master plan-based, and so everything that was in the original 
master plan, we assessed and conducted--actually just took 
their footprint and moved it to FLETC facilities, with the 
addition of a piece of property that is owned by the Marine 
Corps and operated by the National Guard which is about 25 
miles north of us. But, in terms of training, in 2015 we are 
going to train about 86,000 student weeks, and the training 
that they requested from us was 20,000 student weeks.
    Let me explain our measure. Our measure is student weeks, 
because we have so many different kinds of programs. Some are a 
week, some are 11 weeks. So, we have a standard measure of 
student weeks. Our student weeks for Glynco only are 86,000 
student weeks. Their student weeks would be approximately 
20,000 student weeks, which is about a 12 percent increase for 
us.
    Chairman Johnson. What is your cost per student week? Do 
you have that breakdown?
    Ms. Patrick. The programs differ. Special agent training 
has one cost.
    Chairman Johnson. Do you have a range?
    Ms. Patrick For the FACT training, it will be $1,600 for us 
to do that training.
    Chairman Johnson. Sixteen-hundred dollars per student week?
    Ms. Patrick. Yes, per student.
    Chairman Johnson. OK.
    Ms. Patrick. That is for food, lodging, and the curriculum.
    Chairman Johnson. So, Mr. Starr, can you--I will save my 
questions for the next round. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I have been to a lot of military bases. I have never been 
to Fort Pickett. And, I have driven by Glynco a number of times 
over the years, never been there. Just take us down there and 
visually describe each site, starting with Fort Pickett and 
then with Glynco, and keeping in mind the nature of the 
training that is required by the State Department that you just 
outlined here.
    Tell us how the nature of that training for hard skills, 
soft skills--I guess it is just hard skills--but, how does it 
mesh with each of the sites, and particularly the folks who 
live around those sites. We have a big Air Force Base in Dover. 
We have a lot of big planes coming in and out of there. There 
are certain activities that are fine for the people who live in 
Dover. There are some activities that might not be as 
acceptable. So, just talk about that for us a little bit, 
please.
    Mr. Starr. Thank you for the question, Senator. Fort 
Pickett is a very large former military base. It is an active 
duty base now for the National Guard. It is tens and tens of 
thousands of acres. Our space that we have in the middle of 
Fort Pickett is about 1,350 acres.
    Increasingly, our training for duty overseas, including the 
types of weapons we train on for our agents, the types of 
evacuations that we do for our Foreign Service personnel, the 
type of training that we give them, is linked to military 
operations. The heavy armored vehicles that we use, the MRAPs 
that we use, the CH-53 helicopters that we bring in, the 
weapons are big, noisy operations, and we do a lot of night 
training.
    At Fort Pickett, we are in the middle of a very much larger 
military reservation. Things like, if you shoot a 50-caliber 
machine gun for training, you shoot it on an 800-yard range and 
you typically have 2,000 to 3,000 to 4,000 yards beyond that as 
a safe buffer zone.
    The FLETC training where we do our law enforcement 
training, as Ms. Patrick correctly noted, is a--I think it is 
about the same size, about 1,500 acres, 1,400 acres. 
Immediately outside of it, there are suburban tracts of 
housing. There is a golf course. There is a very small regional 
airport. But, it is a suburban atmosphere that is not conducive 
to the type of military training, that military enhanced type 
of training that we train with now.
    Now, as Ms. Patrick said, they looked at a bombing range, 
the Townsend Bombing Range, which is, I think, 30 miles north 
of that, as a possible area to do that type of training. But, 
again, what that immediately does is that you are no longer 
consolidated. It means that you would have one training going 
on in a suburban type of environment. You would have another 
training going on at a different place 30 miles away, all of it 
over 650 miles away when I am trying to maximize our training 
capacity in Northern Virginia.
    So, there is very different types of locales that we are 
talking about here.
    Senator Carper. Thanks very much. That was helpful.
    Ms. Patrick, please, same question.
    Ms. Patrick. The FLETC footprint is about 1,700 acres. It 
was a former Navy base in World War II. We have owned and 
operated it since 1975 when we were in the Treasury Department 
before coming to DHS. And, right now, we have colocated with 
FLETC approximately 30 other partner agency academies. So, 
people think of FLETC as the organization, but FLETC is a joint 
center where agencies conduct both their basic and advanced 
training.
    It contains firearm ranges, multiple driver tracks, and a 
bomb and explosive range on-center. Yes, we do have a 
neighborhood in proximity to the FLETC and that was former base 
housing that when we took over from the Navy was made available 
for people in the community. We do explode things there on a 
daily basis. The Bureau of Alcohol, Tobacco, and Firearms and 
Explosives (ATF), that is their national academy.
    We do not fire at night. We can. There is no noise 
ordinance that prohibits that. But, out of good neighbor 
policies, we do not. We are exempted from noise policies.
    When we made our assessment, I was not aware of the details 
of the capstone project that Mr. Starr spoke about, helicopters 
landing, et cetera, and so I do not think that the helicopter 
part of it would be conducive at night to the Glynco proper, 
but there would be no reason not to do it at the Townsend Bomb 
Range, which is about 5,000 acres, and it is in a military 
reservation.
    Senator Carper. Mr. Starr spoke a great deal about the 
desire to have this training reasonably close to Washington, 
D.C., where the State Department has a large presence, and 
reasonably close to the Marine training facility in Quantico. 
Talk more about why that is important.
    Mr. Starr. Senator, we have a long history with the United 
States Marines. We have 2,000 Marines that serve in our 
embassies and consulates now as the Marine Security Guard 
Units, Diplomatic Security Agents, and most posts around the 
world combined with that Marine Security Guard Unit are the 
protection supplied by the United States for everybody at that 
facility. The host country does have units outside of that, 
obviously, and we have local guard forces. But, our history 
with the Marine Corps goes back many years, and they are our 
primary 911, shall you say.
    In addition to the Marines that serve with us at the 
embassies, the Marine Corps has created special Marine Security 
Augmentation Units that when we go into a crisis situation in a 
country, or an enhanced security situation, we filter in 
additional Marines under this program and they come out of 
Quantico, as well. They are the ones that we train with. They 
understand what an embassy and a consulate are. So, they are 
the ones that go in.
    And, then, finally, we work very closely with the Special 
Marine Air Ground Task Force (MAGTFs), the Marine Corps special 
groups, aviation and ground forces, that are based in places 
like Spain. But, we train with them in the United States. And, 
these are the people that we work with closely on the 
evacuation out of Libya. This is who work with us when we went 
back into the Central African Republic.
    So, we have a very close working relationship. Our 
communications, our training are essentially interoperable with 
the Marine Corps on these types of things and that is a 
critical phase of our training that we work with them.
    Senator Carper. All right. My time has expired. Thank you 
very much.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you. I appreciate all of you joining 
us today on this panel.
    And, thank you, Mr. Starr. You have provided a little bit 
of insight on why you believe that the facility should be 
consolidated in Northern Virginia. But, honestly, looking at 
the cost to our taxpayers--of course, we want high-quality 
training, that is the ultimate goal, but a billion dollars for 
the original plan versus $213 million at Glynco, there is a 
huge difference, and where convenience may be nice, but we want 
high-quality training regardless.
    Do you feel that what you are receiving right now through 
DHS and the partnerships with Glynco is not providing that 
high-quality training?
    Mr. Starr. Thank you, Senator, for the question. It gives 
me an opportunity to talk about the money. And, DHS does not 
currently provide the types of training that we do. DHS does 
provide the training for the initial Criminal Investigator 
Program for my agents, but we are currently doing the hard 
skills training at an interim leased facility in Summit Point, 
West Virginia, on ranges as we can get them at Fort A.P. Hill, 
at Quantico Marine Corps Base, at about six other private 
locations that we lease. So, we do not have the opportunity to 
use FLETC. DHS does not have those types of facilities for us 
in the region. We are not currently using them.
    In terms of the cost, I think it is important to understand 
that there are initial costs, and in this regard, there is a 
General Accountability Organization (GAO) report. GAO has been 
looking at this entire process for the last 6 months. Their 
report has not been released yet. I have commented on the 
report, because we saw the initial drafts, as we normally do, 
and then you give comments back, but that report is due for 
release to the House Foreign Appropriations Committee, I think 
sometime in the next 30 days. I would encourage everyone to 
look at that.
    I think, in terms of costs, there are initial costs that we 
have to bear, but then there are also long-term costs, and the 
estimates are that flying people down to FLETC, the numbers 
that we have to do, which is, A, very inconvenient, and B, may 
interfere with the training, but over the first 10-year period 
alone will be $80 million to $90 million more expensive than 
just us busing our people to a facility in Northern Virginia.
    So, I think, clearly, over the life of this facility, or 
the life of the training that we need to do, and I would say 
that we are going to be going into a period of 10, 20, 30 years 
where we are going to need this type of training, the costs for 
doing it in Northern Virginia are going to be less than the 
costs of doing it in Georgia, and we will have a single site 
where we can do all the training.
    So, I think it is important to understand short-term costs 
versus long-term costs, as well, and the life-cycle costs of 
this.
    Senator Ernst. Well, and thank you, I appreciate it. I will 
be looking at those numbers. I do think that that is important, 
to take a good, hard look at that.
    And, just to followup on that, I really do appreciate the 
fact that the administration is taking a look at this and that 
they want to improve the training capacities for the men and 
women that we have engaged in these diplomatic security forces.
    But, I do want to reiterate, too, that what is more 
important is that we have an administration that prioritizes 
the safety of our diplomats and responds to the requests for 
additional security in times of need. We can have all the 
wonderful enhanced training that we can give you. We can give 
that to you. We can give you the tips, techniques, practices. 
We can give you all the gizmos and gadgets. But, bottom line, 
if we do not have an administration which will allow you to 
engage or to use those techniques and tactics and whiz gadgets 
out there, then this does nothing for us.
    We want to make sure that these men and women are 
protected. We will look at the numbers and make sure that we 
are doing the right thing, but bottom line, when we have an 
administration that turns a deaf ear and a blind eye to the 
needs of our men and women as they are serving overseas in 
these agencies, it does not do us a darn bit of good.
    So, that is my little jab at the administration today, is 
that we have had four Americans killed. I know a lot of this 
came out of the investigations into Benghazi. We can give you 
all we can give you, but if we have an administration who 
refuses to engage, it does not do our men and women a darn bit 
of good.
    So, I appreciate that. We will look into this. I want to 
make sure we are doing the right thing by our taxpayers and 
providing high-quality training for our men and women. But, I 
also want to ensure that we have an administration who 
understands that when there is a time to engage, we need to 
allow our men and women to make that decision and engage.
    I will get off my soapbox. Thank you.
    Chairman Johnson. Thank you, Senator.
    Mr. Starr, as the accountant in the room here, you take $80 
or $90 million divided by 20,000 training weeks, and again, 
that would be a very inefficient process of shuttling people 
back and forth every week, but that is $4,000 to $4,500 per 
round-trip. I do not know who the State Department uses to book 
travel, but that is not a believable number. So, you are going 
to have to go back to the drawing board in terms of getting 
some believable numbers in terms of--I mean, that is way 
overinflated in terms of the cost of travel back and forth. 
Something is wrong here in these numbers.
    Mr. Starr. Senator, that was for over a 10-year period, 
and----
    Chairman Johnson. You said $80 or $90 million per year.
    Mr. Starr. No, over the total 10-year----
    Chairman Johnson. Over 10 years? Oh, OK.
    Mr. Starr. Over 10 years, sir.
    Chairman Johnson. Then never mind.
    Mr. Starr. If I left you with that impression, I apologize.
    Chairman Johnson. OK.
    Mr. Starr. It is the first 10-year period that those costs 
would be about $80 to $90 million more. The GAO looked at that, 
as well, and----
    Chairman Johnson. OK. But, again, that does still assume--
--
    Mr. Starr. It is not a year, sir.
    Chairman Johnson. So, then, it is $400 to $450 per round 
trip, which is more reasonable. Are you going to shuttle them 
back and forth every week? Is that the assumption?
    Mr. Starr. [Nodding head up and down.]
    Chairman Johnson. OK. Thanks. I apologize.
    Mr. Starr. I do apologize, sir, if I left you the 
impression it was annually.
    Senator Carper. Well, I would like to apologize, too, to 
get in this apology thing. Actually, seriously, when he first 
said the number, I thought $80 to $90 million sounded, frankly, 
for 10 years, a little bit low, but now I understand better 
what you are talking about.
    Chairman Johnson. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. I have so many questions, I do not know 
where to start, as the auditor in the room. Let me start with 
this. What percentage of the guards at embassies around the 
world are foreign contractors versus Marines?
    Mr. Starr. I have Marines at over 175----
    Senator McCaskill. What percentage of the guards around the 
world are foreign contractors as opposed to Marines?
    Mr. Starr. Almost all of our guard services outside the 
building itself are foreign. The Marines I have are internal, 
and I have them at about 175 consulates and embassies. But, 
virtually all, outside the buildings and outside our wall, they 
are all foreign, except for a couple places were I have a WPS 
contract where I have some American contractors. That is Iraq, 
Afghanistan, Jerusalem, and at the moment, the Central African 
Republic.
    Senator McCaskill. So, I mean, part of the problem here is 
that a lot of the training you are talking about is perimeter 
training, and I find it ironic that we are--I doubt that any of 
these personnel are going to be training with these foreign 
guards, correct? They are not going to be training with them. 
They are not going to be embedded with them in training. In 
fact, we have real issues about how well those foreign guards 
are even being trained correct?
    Mr. Starr. Ma'am, we do have issues, and we have looked 
very closely at the security that our guards provide. In those 
countries, particularly the highest-threat countries, where we 
believe the guard training, the capabilities are not up to 
snuff, we have a program to bring them back to the United 
States and train them. It is called the Special Augmentation 
Program that we have.
    Senator McCaskill. OK.
    Mr. Starr. And, we have identified them, and this is part 
of the group of people that we will be training at Fort 
Pickett.
    Senator McCaskill. OK. Let me get to those numbers. You 
have come to this hearing to justify spending a couple hundred 
million dollars more than what DHS says they can do this job 
with to your specifications, I might add. This was not their 
training they priced to you. This is your training they priced 
to you. I want that to be very clear. They said they would do 
everything you need to have happen.
    So, what does this cost you now over your 19 different 
contracts? What is the annual cost of this training now?
    Mr. Starr. How much do we spend every year on training?
    Senator McCaskill. How much do you spend total, including 
lodging, travel--you have 19 different leased facilities in 
which you are now doing this training----
    Mr. Starr. Eleven hard skills----
    Senator McCaskill [continuing]. And I guarantee you, they 
are not all in the Washington area.
    Mr. Starr. Eleven hard skills training locations.
    Senator McCaskill. And eight soft skills.
    Mr. Starr. Which are in----
    Senator McCaskill. You have 19 total.
    Mr. Starr [continuing]. The Northern Virginia area, yes.
    Senator McCaskill. Are they not going to be able to do the 
soft skills, also, at the DHS facility?
    Mr. Starr. No. We are doing the soft skills here up at the 
Foreign Service Institute (FSI) and in the Northern Virginia 
area, right around here.
    Senator McCaskill. But, they could do it there.
    Mr. Starr. No----
    Senator McCaskill. Did their price not include soft?
    Mr. Starr. Whose price?
    Senator McCaskill. DHS.
    Mr. Starr. If we moved everybody down, but we never looked 
at those numbers of moving----
    Senator McCaskill. That is part of my problem.
    Mr. Starr [continuing]. Even more people down. The cost 
basis that we have is just for the hard skills.
    Senator McCaskill. OK. What is the cost----
    Mr. Starr. It would engender even longer and higher costs--
--
    Senator McCaskill. If you want to split it out, split it 
out. What is your total cost for hard skills versus soft skills 
right now? You have 11 contracts in 11 facilities for hard. You 
have eight for soft. What is your total cost right now?
    Mr. Starr. I do not have that figure.
    Senator McCaskill. You came to this hearing and you do not 
know that number?
    Mr. Starr. I do not have that figure.
    Senator McCaskill. Seriously?
    Mr. Starr. Yes, Senator. I do not have that complete 
number.
    Senator McCaskill. We are talking about whether or not this 
is a cost-efficient facility and you cannot even tell me what 
it costs you now?
    Mr. Starr. Senator, we are talking about the construction 
costs of a facility----
    Senator McCaskill. No. We are talking----
    Mr. Starr [continuing]. And the training costs----
    Senator McCaskill [continuing]. About what this facility is 
going to cost the taxpayers, period.
    Mr. Starr. That is correct, the facility. The training 
costs are going to be relatively the same, whether we do it 
here--actually, we will lower the per student cost by 
consolidating. I just do not happen to have those figures at 
the top of my fingertips.
    Senator McCaskill. OK, so let me try another one. You do 
not know how much the soft training is costing. You do not know 
how much the hard training is costing. When asked about how 
many weeks you had, you said you did not--some were 7 months 
and some were a week. She knew how many weeks you needed. How 
many weeks of soft training do you need and how many weeks of 
hard training do you need?
    Mr. Starr. Senator, I will take that back for the record 
and give you----
    Senator McCaskill. Oh, my gosh.
    Mr. Starr. Senator----
    Senator McCaskill. You do not even know how many weeks of 
training you need?
    Mr. Starr. Senator----
    Senator McCaskill. At this hearing?
    Mr. Starr. I know every course that we run. I know that our 
FACT training is one week long and we do 150 iterations per 
year. I know that our basic special agent training is 7 months 
long and I generally get two to three to four classes a year, 
depending on funding.
    Senator McCaskill. I understand you know all that, and I 
really----
    Mr. Starr. I just do not happen to have the total at my 
fingertips.
    Senator McCaskill. This is a business decision, and it is 
called a cost-benefit analysis. And it is very clear to me the 
State Department said at the beginning, we want to be here and 
we do not really need to do the kind of cost-benefit analysis 
that anybody should do if they are going to spend this kind of 
money.
    Let me ask this question. She said you needed 20,000 
student weeks. Is she right or is she wrong?
    Mr. Starr. Yes, they did an analysis based on what we gave 
them. That may well be the correct figure.
    Senator McCaskill. So, she knows how many weeks of training 
you need, but you do not know how many weeks of training you 
need, is that fair?
    Mr. Starr. Senator, that is fair.
    Senator McCaskill. OK. Well, I have a lot of questions 
about the confidence we should have in this whole process. You 
talked about needing to consolidate all of this. You do not 
have lodging at this facility in Virginia, correct?
    Mr. Starr. No. Correct, Senator. We believe that private 
industry is a very good way to meet those lodging needs.
    Senator McCaskill. What happened to the consolidation you 
needed? What happened to that consolidation factor? How long 
are you going to have to bus everybody back and forth to hotel 
rooms?
    Mr. Starr. Oh, a couple of minutes. We currently use this 
type of lodging in West Virginia at the moment at our training 
range and it works very well.
    Senator McCaskill. I thought that you had to bus them to 
Richmond to do lodging.
    Mr. Starr. No. Nottoway County and the others, there are 
hotels within 20 to 30 minutes at the moment, and there is a 
great movement in Nottoway County to put hotels directly 
outside of the base in Blackstone.
    Senator McCaskill. OK.
    Mr. Starr. We figured that private industry is a very good 
way to meet those lodging requirements.
    Senator McCaskill. OK. So, right now, you would have to go 
to Richmond, but you are hoping----
    Mr. Starr. Not Richmond----
    Senator McCaskill [continuing]. If you build it, they will 
come.
    Mr. Starr. Not anywhere near Richmond. About 20 minutes 
away.
    Senator McCaskill. OK. So, you are going to bus people 20 
to 30 minutes to get to their lodging every night under the 
current scenario.
    Mr. Starr. Yes.
    Senator McCaskill. OK. What is that going to cost? You said 
it was going to be $80 to $90 million for flights.
    Mr. Starr. It is included----
    Senator McCaskill. What is it going to cost to lodge them?
    Mr. Starr. It is included in the transportation costs that 
we have.
    Senator McCaskill. OK. What about the lodging? What is the 
lodging going to cost, because the lodging is included in the 
figure that is $200 million cheaper.
    Mr. Starr. Correct. FLETC does have a lodging figure. We 
think that the per diem rate will be slightly higher than the 
FLETC figure, but there are also long-term costs that FLETC 
engenders for the repair and maintenance of those facilities.
    Senator McCaskill. OK. What is the lodging going to cost?
    Mr. Starr. We believe that private industry is a very good 
way to meet the lodging requirements.
    Senator McCaskill. What is the lodging going to cost? What 
is the number, because if you are doing this analysis in a 
business analysis--I am channeling the Chairman here--what you 
want to do is you want to look at, I have lodging included in 
this proposal. I do not have lodging in this proposal. You 
cannot do a cost-benefit analysis without figuring out what the 
lodging costs are.
    Mr. Starr. Senator, we pay the lodging costs no matter 
which place that we are at. They are going to charge us for 
lodging. We do not get it free. You pay those same lodging 
costs.
    Senator McCaskill. What is the differential?
    Mr. Starr. It is slightly lower than the per diem cost that 
we pay at a hotel.
    Senator McCaskill. What is your plan for the lodging costs 
if you go forward with this facility in Virginia?
    Mr. Starr. We typically pay about $15 million in lodging. 
It would be the same as we are currently paying.
    Senator McCaskill. OK. I am over time. I will wait for my 
next round. But, I want to ask about the contracts, all of the 
contracts, where they are, so you can--if anybody behind you 
has information to give you about contracts, that is what I 
will ask next round.
    Chairman Johnson. You can ask another question while I do 
my calculation here.
    Senator McCaskill. OK. What I want to know is how many of 
these contracts are going to continue to be in existence. How 
long are the contracts? You have 11 separate contracts for 
hard. You have eight separate contracts for soft. Are you 
envisioning continuing the eight contracts for soft training?
    Mr. Starr. The eight contracts for the facilities that we 
use for soft training that we do lease in the Northern Virginia 
area, the classroom space, we look at that every single year. 
We look at what FSI schedules are. Sometimes, we do training at 
FSI. Sometimes, we have leased space. But, generally, those 
soft skill classroom training facilities will continue in 
Northern Virginia. None of the hard skills training, with the 
exception of our use of the pistol range at FLETC Cheltenham, 
will be used. All of them will be taken off.
    Senator McCaskill. OK. So, all of those contracts will end 
immediately.
    Mr. Starr. By 2019, as we phase into full operation at Fort 
Pickett.
    Senator McCaskill. OK. And, I just want to be clear. Ms. 
Patrick, from your perspective, was the soft training 
capability included in the price that would have occurred if we 
had gone forward with the cheaper alternative in Georgia?
    Ms. Patrick. Our figures were based on their total master 
plan, which included the original scope of what they wanted to 
build at Fort Pickett.
    Senator McCaskill. OK. So, this is really important. They 
included soft and hard. You are going to continue with soft. I 
need to know the cost, because that is in addition to the $200 
million. And, it may be that that is the $80 or $90 million 
that you are claiming you are going to spend on travel going to 
Georgia.
    I do not think anybody who really did a business analysis 
of this would be better prepared than you are, honestly, sir, 
and I do not think this was a business analysis at all. I think 
this is what we want and we are going to figure out a way to 
get it, and that is not the way we go about spending taxpayer 
money.
    Thank you, Mr. Chairman.
    Mr. Starr. Senator, may I respond?
    Senator McCaskill. Yes.
    Mr. Starr. We have looked at this extensively. We have 
looked at construction costs versus long-term costs that we 
already bear and will continue to bear. All of this information 
was given to GAO, as well, who has looked at this extensively. 
This has all been calculated. Whether I happen to have it at my 
fingertips or not, we believe that this is a wise investment, 
that over the course of the lifespan of this project, it will 
save money to our taxpayers and give us better training 
capabilities.
    Senator McCaskill. Well, I look forward to the GAO report, 
but you did not even look at FLETC until late in the process. 
It was not even flagged so it was considered, and they have 
sites all over the country. FLETC was not even considered until 
you were two-thirds of the way down the road. There was no 
effort to start at the beginning and go, do we have duplication 
in government? Is there a place that we could make this work 
and still get the kind of training that all of us want for our 
personnel? No. It was not until way down in the process that 
you even began to look at this, frankly, because OMB made you.
    Chairman Johnson. OK----
    Mr. Starr. Senator, it goes to the heart of the issue, that 
FLETC is a Law Enforcement Training Center and we are 
increasingly involved in operations that are much more closely 
aligned with the military than law enforcement.
    Chairman Johnson. Ms. Patrick, let me start--again, I want 
to drill down on costs, and I am sorry, Mr. Starr, you are 
making all these pronouncements, this is the best, most cost-
beneficial alternative, and you do not know the cost, so, I 
mean, I am scratching my head.
    Ms. Patrick, when you were saying $1,600 per training week, 
that is all inclusive? That includes lodging--and, by the way, 
do you use hotels? Do you have dormitories? How do you do that 
at FLETC?
    Ms. Patrick. We have 2,000 beds, dormitory space, at 
Glynco. We also rely on existing contracts in the community 
should our students exceed that number. That is single-
occupancy. That can be doubled, as well.
    The $1,200 that I mentioned was for the FACT training, 
which is that 1-week training program, and that includes the 
cost of the equipment, the fuel for the vehicles, the firearms, 
and also includes lodging and meals and miscellaneous.
    Chairman Johnson. OK. Earlier, I had written down $1,600.
    Ms. Patrick. I am sorry, $1,600.
    Chairman Johnson. Sixteen-hundred, OK.
    Ms. Patrick. I am sorry. Sixteen-hundred.
    Chairman Johnson. But, again, so that is an all-inclusive 
cost?
    Ms. Patrick. All inclusive.
    Chairman Johnson. That is what you would charge, basically, 
the State Department for complete training, and all they would 
really have to do is get their personnel down there at maybe 
$400, $450 per round trip.
    Ms. Patrick. That is what we are charging this week to 
train predominately the Centers for Disease Control (CDC) and 
the Drug Enforcement Administration (DEA) and other agencies 
that are going through that program.
    Chairman Johnson. OK. I mean, Mr. Starr, just doing, again, 
a back-of-the-envelope calculation, which is dangerous--I have 
run into trouble a number of times on this--but Fort Pickett is 
140 miles away, so at 55 cents a mile round-trip, that is going 
to cost about $140, $150.
    Mr. Starr. For a bus.
    Chairman Johnson. Pardon?
    Mr. Starr. For a bus.
    Chairman Johnson. OK. So, you are going to be transporting 
these guys down on buses.
    Mr. Starr. Yes.
    Chairman Johnson. Hotel rooms, I mean, again, just taking 
$15 million divided by 20,000 training weeks times 5 days, that 
is about $150 a night for hotels, which you could maybe get a 
deal and get it for less than that. I mean, you can start 
racking up a whole lot more--$150 per five nights would be 
$750, plus busing fee. I mean, you can very quickly exceed the 
$400 airfare.
    Right now, you are using how many facilities to do all the 
training you are doing?
    Mr. Starr. Eleven different hard skills training 
facilities.
    Chairman Johnson. And how many soft skills?
    Mr. Starr. Eight.
    Chairman Johnson. So, you have 19 total facilities. You 
want to consolidate all of this, so you are going to 
consolidate the 11 and you will still have the eight.
    Mr. Starr. Correct.
    Chairman Johnson. If you use FLETC, you would fully 
consolidate all of it.
    Mr. Starr. We have not looked at that, sir. I do not 
believe that that is true, because we still will be doing 
training at the Foreign Service Institute up here. We will 
still be doing training with some of our other partners up here 
in terms of law enforcement training.
    Chairman Johnson. And that would have been true even with 
the Fort Pickett facility?
    Mr. Starr. Yes.
    Chairman Johnson. OK. So, again, your original game plan 
was to consolidate as much as possible, and that was going to 
cost 900-and-some million dollars, almost a billion. And then 
that was too expensive, so you split out the hard versus the 
soft. Yet, FLETC basically gave you a total consolidation, 
which was the original concept behind the Fort Pickett 
facility, correct?
    Mr. Starr. That is what FLETC is saying. But, the numbers 
of personnel that we would transport that we have figured out 
in the cost basis is solely on the hard skills only.
    I think what we are doing is getting into measuring apples 
and oranges here, sir. When we talk about the original costs of 
this, we are talking about the construction costs of 
facilities, and that is one side of it, only one side of it.
    Chairman Johnson. But, again, no, we are also trying to 
drill down into the per training week cost, which you do not 
have any idea of, and yet Ms. Patrick does, she is an expert, 
and that facility is an expert at training people, a whole 
range of different training facilities. You end up developing 
the curriculum for a host of different training regimens, 
correct?
    Ms. Patrick. Correct.
    Chairman Johnson. I mean, talk a little bit about that.
    Ms. Patrick. Our process in serving our clients or our 
customers, law enforcement agencies, is to determine by their 
job task and the analysis of that job task. We do curriculum 
development conferences around that. We validate those tasks. 
We prioritize those tasks. We create curriculum around those 
tasks. And, if it is specialty training or advanced training 
needs, then we research and identify what is the best 
methodology in approaching that. It is not always bricks and 
mortar. My experience has been that is very costly. So, I look 
for alternative ways to achieve the same end without building, 
because that is the more expensive option. We use a lot of 
modeling and simulation and other means of training to meet our 
objectives.
    Chairman Johnson. And, again, you are on, I think you said, 
1,700 acres, a former military base?
    Ms. Patrick. Yes.
    Chairman Johnson. And, you can fully do all of the hard 
skill training there, again, with some construction, you would 
actually be able to get those military-type trainers into your 
facility and design a curriculum to handle their needs?
    Ms. Patrick. As I said, my cost estimates were based on the 
information I had in 2013, and if it has changed since then, I 
would have to again look at that. The helicopter was not 
something I factored in. Again, it could be done at the 
Townsend Bomb Range, but that would be my recommendation, just 
because of noise and night training.
    Chairman Johnson. But, as an expert in training from a 
broad range of different curriculum, you could easily cite your 
cost per training week.
    Ms. Patrick. Yes.
    Chairman Johnson. I mean, that is just something ingrained. 
You know what that is because you are always looking at that, 
you are calculating it because you have to cost it out to 
people.
    Ms. Patrick. Yes.
    Chairman Johnson. So, I would have much greater faith that 
your facility is going to maintain cost efficiency versus the 
State Department that does not have a clue what it is costing.
    Ms. Patrick. Well, right now our cost for lodging, meals, 
and miscellaneous would be sharing the cost of mowing the grass 
and utilities, et cetera, is $103 a day.
    Chairman Johnson. So, again, Mr. Starr, do you understand 
our concern when, on one hand, we have within a government 
system, we have a training facility that does a broad range of 
training, provided a very reasonable proposal, originally about 
a quarter of what the State Department was going to do, which, 
I think, put pressure on the State Department to scale back, 
not even do the full plan that FLETC will actually provide. So, 
you cut it in half. You are still double the cost. And you are 
coming before the Committee and you do not have a clue what 
your per week training cost is going to be, what your lodging 
costs are going to be.
    Can you understand why the Members of the Committee are 
concerned about this?
    Mr. Starr. Senator, yes, I can, but we are talking about 
apples and oranges----
    Chairman Johnson. In what way?
    Mr. Starr. We are still going to pay per diem. The cost of 
the----
    Chairman Johnson. No, she has----
    Mr. Starr. No, I am sorry, sir----
    Chairman Johnson. That is factored into the cost.
    Mr. Starr [continuing]. That is not true. The course, the 
FACT course that Ms. Patrick quoted is the cost of the course. 
Lodging and per diem are on top of that. You are going to pay--
--
    Chairman Johnson. No. She is shaking her head, no, it is 
not. It is included in the $1,600 per week.
    Mr. Starr. No. We train there, sir. We know what the costs 
of the courses are----
    Chairman Johnson. Well, how come you know her cost but you 
do not know your?
    Senator McCaskill. Let her answer.
    Mr. Starr. Sir, I know----
    Chairman Johnson. Oh, I am sorry.
    Mr. Starr [continuing]. That we pay per diem. We pay MI&E 
when we go for training at FLETC. This is part of what you do.
    We are currently paying $21 million a year for hard skills 
leases. That is our cost for that. We can cut that well in 
half. We can cut that tremendously and cut our student costs by 
consolidating in one area.
    But, the bigger issue, still, sir, is that spending money 
on a facility that will not meet our needs, that does not allow 
us to train with the military on a military-type training base, 
is not what we need for the future. FLETC is a Law Enforcement 
Training Center, and an excellent one. We train our agents 
there. I am not in the slightest bit impugning FLETC. But, 
their facility that they have there is about the same size as 
the one that we are going to build, and then outside of the one 
we are going to build, we have thousands of acres that allow 
weapons, heavy weapons, to be fired safely and effectively, 
allow us to set off explosions, allow us to ready ourselves for 
the types of atmosphere that we are going in overseas.
    I would argue, sir, that the construction costs are one 
thing. The ongoing training costs are going to be very close in 
either location. But, the transportation costs and the 
inefficiencies of moving all of our people over even a 10-year 
period--and GAO says this--will be about $90 million in savings 
a year, $80 to $90 million in savings a year.
    So, I think there are different ways to look at this. I 
think that it is very important that you look at the upcoming 
GAO report that is on this, as well.
    Chairman Johnson. OK. No, we will, and we will certainly be 
asking the Department of State to give us more information.
    Ms. Patrick, real quick, did you want to respond.
    Ms. Patrick. My CFO said that the curriculum cost about 
$600. The rest is per diem, lodging, and that is at the high 
end on the economy. So, we have a broad range. If you stay on-
center, it is much lower cost, and if you stay off-center, it 
is a little higher cost. So, he did the estimate based on the 
most expensive option.
    Chairman Johnson. OK. Thank you.
    Senator McCaskill. So, $1,600 per week----
    Ms. Patrick. Yes.
    Senator McCaskill [continuing]. Including the lodging and 
including per diem?
    Ms. Patrick. Yes, ma'am.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    You mentioned upcoming GAO report. Could somebody give us a 
preview of that, just 30 seconds? What question is GAO 
answering in this report?
    Mr. Starr. GAO looked closely at the decision to locate at 
Fort Pickett. They looked at the costs. They looked at 
transportation. They looked at the construction. They looked at 
quite a few things. The report has not been released yet. It 
was a request of the House Foreign Affairs Committee. I have 
seen the draft report, but until such time as GAO actually 
releases it to the Committee, it is unavailable.
    Senator Carper. Can we expect to see that this year?
    Mr. Starr. I believe that it is scheduled to be ready in 
the next 30 days.
    Senator Carper. Well, good. That is pretty timely.
    Do you know anything about it, Mr. Mader?
    Mr. Mader. Senator, I know there is a draft, but I have not 
seen it personally.
    Senator Carper. OK. I mentioned Dover Air Force Base 
earlier. We think it is the best airlift base in the world. 
They have won or been finalists for any number of years for 
winning the Commander-In-Chief's Award for best Air Force Base 
in the world. I am very proud of the work that they do with 
their C-5s, C-17s, and so forth.
    We have worried about, ever since when I was Governor and 
before that, we have worried about encroachment at the base and 
the community is closing in on the base. And one of the reasons 
why it is very attractive, very good for airlift is it happens 
to be location, location, location. It is a great place to 
locate an airlift base to go, whether you are going north, 
south, east, or west. So, we have worked with the local county 
officials, local town officials to try to make sure that we do 
not face that kind of encroachment, encroachment, encroachment 
that might eventually lead to the base's closure.
    I want to talk about encroachment at Fort Pickett and down 
at Glynco, as well. How far is Glynco from the ocean, any idea?
    Ms. Patrick. Approximately 14 miles.
    Senator Carper. Fourteen miles. We have in Delaware, 
especially in Southern Delaware, from Rehoboth and Dewey Beach, 
Bethany Beach, we have all kinds of people who want to live 
there, and they want to be fairly close--we have people now 
that are saying places like Millsboro, Delaware, is beachfront 
community. It is, like, 14 miles from the ocean. But, we have a 
place called Ocean View that does not really have an ocean 
view, but people want to live there because they think some day 
with the sea level rise it will have an ocean view. I say that 
with tongue-in-cheek.
    But, talk to us about encroachment. What are the concerns 
about encroachment at Fort Pickett, and what concerns do we 
have with respect to encroachment at Glynco, given the nature 
of the training operations? It sounds like real live training.
    Mr. Starr. Sir, it is. I am afraid that what we have seen 
over the last 15 years from our involvement in Iraq and 
Afghanistan and many other places in the world today, the types 
of training that we are fulfilling is very different than what 
we saw not very long ago. Even the FACT training, which used to 
be just for personnel going to our highest threat level posts, 
the Department has made a decision that this is a requirement 
for every single person going out.
    On the encroachment issue, it is one of my main concerns. 
If we are going to invest this type of money, we want to make 
sure that we have a facility that is good for the next 10, 20, 
30, 40 years. The military base at Fort Pickett is, in part, 
driven by the fact that we had an earlier proposal from GSA to 
locate in Queen Anne's County in Maryland, and when we did the 
Environmental Impact Statement, when that was done, the people 
around us who learned what type of training we are doing, how 
many explosives we set off per day, the types of weapons that 
we use, objected to the presence of this, which is why we then 
started thinking very closely about locating into the middle of 
an active duty training base.
    This base has tanks roaming around on it for training. They 
bring in National Guard Reserve units. They are firing off 
artillery. It is just southwest of Richmond, Virginia, in an 
area that is not likely to have development. So, this went into 
our thinking. And, we are looking at the issue of encroachment 
in the future and trying to make sure that it does not impede 
our training.
    Senator Carper. OK, good. Thanks.
    Ms. Patrick, please.
    Ms. Patrick. FLETC does have a fence line, so it is a fixed 
site. However, there is additional acreage adjacent to it which 
part of our estimate included a $7 to $8 million figure to 
procure property, if we needed to. However, I think that was a 
condition that OMB put on us, not to buy new land. And, so, but 
there was a contingency in our estimate.
    The site at the Townsend Bomb Range, which is 25 miles 
north of FLETC, there is no encroachment. It is 5,000 acres of 
open military land. The Marine Corps has bought, subsequent to 
this, bought thirty-some-thousand acres to do additional 
training. So, that 5,000 is really used for National Guard 
training. We use the range for long-range guns for some of our 
partners. And, that would be where I would relocate some of 
those things.
    Senator Carper. All right. Thank you.
    Mr. Mader, what were the major factors that were taken into 
consideration by OMB in its determination of where the State 
Department's training facility would be located?
    How did the Office of Management and Budget weigh the long-
term costs and benefits of each proposal, including support 
services such as lodging?
    Mr. Mader. Thank you, Senator. On the first question, and I 
think I talked about this a little bit in my opening statement, 
I think in these kinds of situations where there are very 
unique and very different training requirements--and I say that 
from my prior life in the Internal Revenue Service (IRS), 
having been an active participant and supporter of Glynco, 
where the IRS trains all their special agents, so I am very 
familiar, having visited there multiple times in my career. So, 
I understand the mission and what the Law Enforcement Training 
Center does for its partners.
    I think in this case, what was compelling to OMB was, and I 
think Mr. Starr has done a good job of laying out the 
uniqueness of this training, because I would characterize this 
as purely military training, very different than the kind of 
training that IRS special agents go through. IRS special agents 
do not fire 50-caliber machine guns and fly in helicopters.
    And, I think, in looking at the value of this facility, we 
were compelled to say, look, the uniqueness of this training 
and the growing threat around the world really caused us to say 
we need to defer that judgment on what they need both today and 
going forward to the State Department. And, I can tell you 
personally, having looked at this now, having not been here at 
the time of the determination, I am convinced that this is the 
right decision in that it provides the proper balance between 
cost and the taxpayers' dollars and a mission that is critical 
to our country.
    Senator Carper. Thanks very much.
    Chairman Johnson. Just real quick, while we are on that 
point, Mr. Starr, how many training weeks of that military 
style training are we talking about out of that 20,000? Do you 
have any clue? Is it 5 percent? Is it 50 percent?
    Mr. Starr. I would estimate 30 to 40 percent, sir.
    Chairman Johnson. OK. Thanks. Senator McCaskill.
    Senator McCaskill. Just to be clear, OMB, when you got the 
sticker shock, that is when you began the FLETC comparison, and 
you asked the State Department and FLETC to do a cost and 
feasibility comparison.
    Mr. Mader. That is correct, Senator.
    Senator McCaskill. And, have you seen that cost and 
feasibility comparison?
    Mr. Mader. I have seen, in preparing for the hearing. I was 
not here during that time period--those costs and comparisons 
changed over time, as conversations went back and forth between 
OMB and FLETC and the State Department.
    Senator McCaskill. I do not know how we can do a cost 
and--it does not appear to me that today, anyway, that anybody 
is able to do a very good job articulating a cost and 
feasibility comparison, because let us just look at the travel. 
It is 3 hours to drive to the Virginia facility. It is 3 hours 
to fly to the Georgia facility.
    Mr. Starr, I am looking at the master plan here, your 
master plan, and the master plan shows--and, by the way, it 
even on the back shows how many charter buses you are going to 
have to have on a daily basis to travel either 52 minutes or 55 
minutes twice a day for lodging. This is your master plan. So, 
I do not know--you said it would take a couple of minutes. I am 
assuming that part of the cost comparison was that you are 
going to have not only 3 hours getting there, but you are going 
to have 2 hours of transit time, approximately, every single 
day on charter buses, correct?
    Mr. Starr. No, I do not believe that is true.
    Senator McCaskill. Well, why is this your master plan?
    Mr. Starr. I do not have that document in front of me. I 
have been to Fort Pickett many times. I know that the hotels 
that are available are about 20 to 30 minutes away at the 
moment. We also know that the town of Blackstone, which is 3 to 
4 minutes away from Fort Pickett, is looking at building hotels 
and meeting our needs there, as well. So, I think we are 
already----
    Senator McCaskill. Mr. Starr, I have to interrupt you here. 
This is the master plan from your agency, and not only does it 
show the exact routes to the hotels, on the back, it shows two 
different scenarios of bus transportation. They have even gone 
to the extent of deciding whether or not you would take large 
charters in or whether you would try to group by specialty the 
people being trained and putting them on smaller coming in, 
whether you would have a hub going out within the facility. I 
mean, there was a great deal of detail done here.
    Mr. Starr. Yes, obviously.
    Senator McCaskill. So, somebody has done----
    Mr. Starr. That is what the master plan is about, yes.
    Senator McCaskill. Well, I do not--you just said you do 
not--you disagreed with your own master plan.
    Mr. Starr. I am saying that it is not 2 hours of 
transportation each day.
    Senator McCaskill. Well, if it is 55 minutes one way if you 
go to these hotels and 52 minutes the other way, I guess maybe 
I should say, more accurately, it is 107 minutes.
    Mr. Starr. Senator, that is the current facilities that are 
there. We also know that in a very short time, they are looking 
at building hotels in Blackstone, which is literally 3 minutes 
from the base.
    Senator McCaskill. OK. Well, did I hear you, Ms. Patrick, 
say that 25 miles away there was a facility for artillery that 
could be fired, explosions that could be fired, and that the 
Marine Corps currently is using that facility, the same Marine 
Corps that Mr. Starr says they need to work with?
    Ms. Patrick. Yes. They blow up ordinance with their 
aircraft in that facility.
    Senator McCaskill. I just think we need a lot more 
information. I know the Committee staff has done a comparison 
of transportation and lodging over a period of time and it 
shows they are almost identical, the two facilities. So, Mr. 
Mader, if you can give us more information it just seems like 
they want this, and because they were willing to cut the price 
in half, you gave it to them. And, by the way, I have not heard 
the number of what the soft training is going to continue to 
be. That is in addition to what we have talked about today.
    So, we have to get a lot more information. I hope, Mr. 
Chairman, we have another hearing. I think we need to try to 
stop this dead in its tracks.
    Chairman Johnson. We will have a followup hearing.
    I have one quick question for Mr. Mader. Senator Carper has 
a question, as well. I do have an OMB cost analysis here. I 
believe this was done in 2013. Are you familiar with this?
    Mr. Mader. As part of my preparation, I did see that 
document, yes, sir.
    Chairman Johnson. OK. So, just so I understand, it has 
option one, which is the FASTC, and it has option two, which is 
the FLETC. Now, was this back in 2013 when the FASTC was the 
complete, combined, consolidated plan, or has this already been 
skinnied down to only the hard skills in the FASTC?
    Mr. Mader. I am not sure, Mr. Chairman. I would have to 
take it back and ask those questions.
    Chairman Johnson. OK. Just so you know, the total cost over 
10 years of the Virginia facility, the Fort Pickett facility, 
would be about $1.3 billion. The total cost over 10 years of 
the FLETC down in Georgia would be about $825 million.
    So, the bottom line is, I agree with Senator McCaskill. We 
will do a followup hearing, and I guess, Mr. Starr, Mr. Mader, 
Ms. Patrick, I think you are understanding kind of the type of 
questions we are going to be asking and the kind of detail you 
want. We will definitely look forward to the GAO report. But, 
we are going to get down, kind of like in the private sector. 
This is going to be, from my standpoint, like a Department 
budget hearing and I am going to want the detail. I am going to 
want to see this laid out, number of training weeks, number of 
people, really laid out so we understand this, OK?
    We will give you an opportunity for a final comment here 
after Senator Carper asks his question.
    Senator Carper. Thanks, Mr. Chairman. This has been a good 
hearing, and maybe a not entirely comfortable hearing, but, 
ultimately, a good one. Our job is to do oversight and to try 
to make sure that we are looking out for taxpayers, and, 
frankly, to enable the State Department employees to get the 
training that they need to protect our folks overseas.
    Ms. Patrick, do you agree that Fort Pickett is the best and 
maybe even the only option for the State Department to conduct 
the training that it needs?
    Ms. Patrick. I think, certainly, the cost differences are a 
factor, but in terms of the qualitative issues that Director 
Starr spoke to, I think they need to be explored further, too, 
and understood in terms of their training partners being 
colocated. I do not know what it costs them, if they were to 
come and train at FLETC, as well.
    So, I think his goals are very important and I think that 
we certainly have a lot of experience in the business of 
building facilities for training. And, if the decision were 
made--well, the administration has recommended it be at Fort 
Pickett, and I would certainly be willing to share some best 
practices that we have learned over time to help reduce cost if 
you agreed to support the Fort Pickett option.
    So, again, the cost is very important, but I think there 
are a lot of other factors to consider, as well.
    Senator Carper. OK. Thank you.
    Can any of you give us maybe an example or two, either here 
at the hearing or in writing, about situations in the last, I 
do not know, decade or so where maybe a base was built or a 
facility was built, a Federal facility was built, where there 
was a need for off-base housing. Like Dover Air Force Base, we 
have housing on-base, but we also have the private sector has 
actually stepped forward in the last dozen or so years and 
built housing, housing built by the private sector off-base, 
contiguous to the Dover Air Force Base. Plus, we have a bunch 
of hotels that have been built. We have planes coming in and 
out all the time and air crews, maintainers need a place to 
stay maybe for a night or two, and so the private sector has 
kind of risen up and met those needs.
    And, where I am going is, Mr. Starr, you seemed to believe 
that the community there, the little town of Blackstone, and I 
guess they have a Chamber of Commerce there in the county, that 
they are actively involved, maybe, in saying if Fort Pickett 
actually is the ultimate site, we want to help build, work with 
the private sector to meet the housing needs off-base and to 
not have to go 50 or 52 minutes, to not have to go 20 or 30 
minutes, but to go outside their gate and meet their housing 
needs.
    Can you give us some examples where that has actually 
happened in recent years in another State so we can actually 
believe, yes, that will happen? I think it will, but that is 
just my intuition. Can anybody help with that on the record for 
now, or later?
    Mr. Mader. Senator, I do not have any off the top of my 
head, but we will get back to you.
    Senator Carper. OK. All right.
    The last question I have, on these soft training needs, 
hard training needs, and I understand Fort Pickett, we are able 
to meet--if you consolidate everything there, we go from 11--
did you say 11 sites we are doing hard training, and soft 
skills, hard skills--is it 11 being consolidated into one? Are 
they all the hard skills? And, how many are soft skills and 
that cannot be consolidated, and why can they not be 
consolidated in Fort Pickett?
    Mr. Starr. We could consolidate at Fort Pickett, but it 
would mean building a lot of classroom type of buildings down 
there that we currently have space, and we use the Foreign 
Service Institute in Arlington. We have our headquarters space 
that we use. We have an annex that we use for training. We have 
an engineering annex that we use for training. So, those are 
the soft skills. It is classroom type of training that we are 
doing up here.
    The 11 hard skills sites that we use, as I say, that 
includes getting space at military bases, but also private 
contractors, the only one that would continue to be used is a 
pistol range, a DHS-FLETC pistol range in Cheltenham, Maryland, 
which we continue to use for handgun qualifications. That is a 
FLETC facility that we use. But, all of the other 10 
facilities, hard skills training facilities, would be combined 
onto Fort Pickett.
    Senator Carper. OK. In conclusion, I would just say, 
colleagues, GAO looks like they may have something for us in a 
month or so. Mr. Chairman, you and Senator McCaskill both 
indicated a willingness then to have another hearing. I would 
suggest that maybe that would be a good hearing to invite GAO 
to come to and maybe some of these folks. I think you have all 
done a very nice job here today.
    And, Ms. Patrick, I accept your invitation. I look forward 
to come down, unarmed, to Glynco, Georgia, and see what great 
job that you are doing. Thank you all.
    Chairman Johnson. Thank you, Senator Carper.
    So, let us just finish off, give everybody a chance to make 
a closing comment before we close out the hearing. Mr. Starr.
    Mr. Starr. Mr. Chairman, thank you for the opportunity 
here. And, I can see that there are questions that many people 
want. This is a large project. It is no doubt about it. And, in 
a fiscal environment that is very tight, we all need to be 
stewards of the taxpayers' money.
    I am trying to get a facility that will meet our needs in a 
very different and changing world. It is not law enforcement 
any more for us. It is much more oriented with our partners in 
the U.S. military. I think that what we are facing in the 
future in terms of radicalization and the types of threats that 
we face overseas are going to continue to grow. Since Benghazi, 
we have had major attacks on our embassies and consulates in 
Herat, we have had them in Erbil. We have evacuated Libya. We 
have evacuated Tripoli. We have gone back into the Central 
African Republic. We have tight situations in Burundi and South 
Sudan. We are looking closely at the effects in Amman, Jordan, 
and in Turkey at this point. We are going to be facing a very 
different type of environment, and what we are trying to do is 
prepare our people.
    And, I appreciate the fact that your Committee looks 
closely at these things. Our decision is based not solely on 
cost, but on cost and synergies and building those capabilities 
for the future.
    Thank you very much.
    Chairman Johnson. OK. Thank you, Mr. Starr. And, listen, 
everybody here completely understands and agrees with that high 
priority part of the mission. So, again, we want to, obviously, 
make sure that that occurs. Mr. Mader.
    Mr. Mader. Thank you, Mr. Chairman. I think I just want to 
echo what Mr. Starr said. I think our interests are all 
aligned. We have the same interests in that we want to provide 
for the safety and security of all our employees who are posted 
overseas and we want to do it in a way that is most cost 
effective and yet delivers the quality and the type of training 
that we are going to need, not only today, but going forward. 
Thank you.
    Chairman Johnson. Thank you. Ms. Patrick.
    Ms. Patrick. I just want to thank you for the opportunity 
to share about FLETC, and with us, it is always about the 
student. We focus on the student, what is in their best 
interest, and that usually helps us get to whatever that 
compromise is. And, so, in this case, we have the benefit of 
having a lot of existing capabilities and capacity that 
Congress has funded over time, and that is a disadvantage to 
them, in this case, but it is also something that, obviously, 
we need to consider.
    But, again, I have the most respect for the State 
Department and what their needs are and I want to be helpful in 
any way that I can.
    Chairman Johnson. OK. Well, thank you.
    Well, we will have a followup hearing. We will wait to read 
the GAO report. And, I guess my request of all of you, 
including GAO, is work together so we are dealing with 
basically common formats, so we are dealing with the number of 
training weeks, whatever the metrics are, so that we are not 
comparing apples to oranges here. Let us be comparing oranges 
to oranges. That is my request.
    Again, we share the same goal. We truly do. It is our 
responsibility to provide this oversight so that we understand 
it. Help us understand the decision that was made. So, again, 
work with GAO. After that report comes out, I would really like 
all of you, all three of you with GAO, let us come together, 
again, with a common template and format for the information we 
are going to be reviewing in our next hearing, OK?
    So, with that, this hearing record will remain open for 15 
days, until August 12, at 5 p.m., for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:32 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
